                        Incurred Costs Audit for
                    Fiscal Year Ended March 31, 2002

                                 March 2004

                     Reference Number: 2004-1C-078




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            March 30, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Incurred Costs Audit for Fiscal Year Ended March 31, 2002
                              (Audit #20041C0224)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       November 18, 2002, certified final indirect cost rate proposal and related books and
       records for reimbursement of Fiscal Year (FY) 2002 incurred costs. The purpose of the
       examination was to determine the allowability of direct and indirect costs and to
       establish audit-determined indirect cost rates for April 1, 2001, through March 31, 2002.
       The proposed rates apply primarily to flexibly priced contracts.
       The DCAA questioned costs of approximately $30.4 million in the contractor’s claimed
       fringe, overhead, and general and administrative (G&A) expenses. The DCAA believes
       indirect costs questioned in this examination are subject to penalties provided in the
       Federal Acquisition Regulation (FAR). The questioned costs include approximately
       $22.9 million in claimed overhead executive compensation costs for FY 2002. In
       addition, the questioned executive compensation costs resulted in $781,786 of
       questioned overhead allocation to the G&A pool. The DCAA indicated that the
       questioned costs resulted from a comparison of executive compensation to that of
       comparable positions published in executive market pay surveys. The DCAA
       questioned the executive compensation costs based on application of the
       reasonableness criteria of the FAR Part 31.
       The questioned costs also include approximately $5.9 million in claimed corporate
       allocation cost. This questioned cost is the result of the DCAA’s reconciliation of the
       claimed corporate allocations to the contractor’s FY 2002 corporate audit report. The
                                           2




contractor concurred with DCAA’s results except for the finding and recommendations
relating to executive compensation and related overhead costs applied to the
questioned executive compensation.
The DCAA opined that the contractor’s indirect rates are not acceptable as proposed.
However, claimed direct costs, subject to the qualifications discussed below, are
acceptable and provisionally approved pending final acceptance.
The DCAA qualified its audit report because results of the assist audits for the
subcontract costs had not been received. Also, the DCAA indicated that the
contractor’s home office has been cited as being in noncompliance with Cost
Accounting Standard 405 for failing to identify and exclude expressly unallowable costs
from its incurred cost submission. A final determination on this noncompliance may
lead to additional questioned costs.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
